Case: 20-40021

Document: 00515500978

Page: 1

Date Filed: 07/23/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 20-40021
Summary Calendar

United States Court of Appeals
Fifth Circuit

FILED
July 23, 2020
Lyle W. Cayce
Clerk

Consolidated with 20-40022
UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
TOMAS MORENO-TURRUBIATES,

Defendant-Appellant
Appeals from the United States District Court
for the Southern District of Texas
USDC No. 1:19-CR-498-1
USDC No. 1:15-CR-533-1
Before HIGGINBOTHAM, JONES and COSTA, Circuit Judges.
PER CURIAM:*
Tomas Moreno-Turrubiates appeals the 52-month sentence imposed
after his guilty plea conviction for illegal reentry after removal. He also
appeals the revocation of his term of supervised release that was imposed in
connection with his prior conviction for illegal reentry. However, MorenoTurrubiates does not brief any argument as to his revocation or revocation
* Pursuant

to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.

39

Case: 20-40021

Document: 00515500978

Page: 2

Date Filed: 07/23/2020

No. 20-40021
c/w No. 20-40022
sentence and, accordingly, has abandoned any related claim. See United States
v. Beaumont, 972 F.2d 553, 563 (5th Cir. 1992).
Moreno-Turrubiates contends that the district court’s explanation for its
choice of sentence was inadequate in light of his arguments for a variance. We
review this argument under the plain error standard because MorenoTurrubiates did not raise this issue in the district court. See United States v.
Mondragon-Santiago, 564 F.3d 357, 360-61 (5th Cir. 2009). The explanation
given by the district court, though brief, was enough to satisfy us that the court
heard Moreno-Turrubiates’s arguments and plea for leniency and that it had
“a reasoned basis for exercising [its] own legal decisionmaking authority.” Rita
v. United States, 551 U.S. 338, 356 (2007). Moreno-Turrubiates has not shown
any procedural error, let alone plain procedural error.
The judgment of the district court is AFFIRMED.

40

